CERTIFICATE OF SERVICE
■i

I HERBY CERTIFY that I caused a true and exact copy of the foregoing,
Writ of Certiorari and Appendix was sent Certified Mail to:

OFFICE OF THE CLERK
SUPERIOR COURT OF THE VIRGIN ISLANDS
MAGISTRATE / APPELLATE DIVISION
P.O. Box 929
Christiansted V.I. 00821-0929

OFFICE OF THE CLERK
SUPREME COURT OF THE UNITED STATES VIRGIN ISLANDS
P.O. Box 336
Frederiksted, VI 00841

I declare under penalty of perjury that the foregoing is true and correct.
Executed on

v aAn \ P-6\v
Cams George
102Est. Diamond Plot 74
Frederiksted, V.I. 00840
Telephone# (340)227-9206Email address: georgechns61@yahoo.cogn

Sworn before me on this l*\ day, December 2018
ALICiA SYKES
Notary Public
St. Croix, U.S. Virgin islands
NP-42-15
My Commission Expires May 13, ?0lp I

